    AUDIT OF OFFICE OF COMMUNITY ORIENTED 

   POLICING SERVICES GRANTS AWARDED TO THE 

CITY OF JACKSON, TENNESSEE, POLICE DEPARTMENT 



           U.S. Department of Justice 

         Office of the Inspector General 

                  Audit Division 


          Audit Report GR-40-13-001 

                November 2012 

       AUDIT OF OFFICE OF COMMUNITY ORIENTED

     POLICING SERVICES GRANTS AWARDED TO THE

   CITY OF JACKSON, TENNESSEE, POLICE DEPARTMENT


                        EXECUTIVE SUMMARY


       The Department of Justice (DOJ), Office of the Inspector General,
Audit Division, has completed an audit of Office of Community Oriented
Policing Services (COPS) grants awarded to the City of Jackson, Tennessee,
Police Department. We audited a COPS Hiring Recovery Program (CHRP)
grant to fund 10 entry-level sworn officers for 3 years and a COPS
Methamphetamine Initiative (METH) grant intended to reduce the
production, distribution, and use of methamphetamine. The Police
Department was awarded a total of $2,017,976 to implement the grant
programs shown in Exhibit I.

EXHIBIT I: OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
    GRANTS AWARDED TO THE JACKSON POLICE DEPARTMENT
                       COPS       AWARD            AWARD          AWARD
GRANT NUMBER
                     PROGRAM    START DATE        END DATE        AMOUNT
2009-RK-WX-0809        CHRP       7/1/2009        6/30/2012       $1,568,000
2007-CK-WX-0324        METH       9/1/2007        8/31/2010         $449,976
            TOTAL:                                               $2,017,976
Source: COPS

      The objective of our audit was to determine whether costs claimed
under the grants were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and the terms and conditions of the
grant. We also assessed the accuracy of certain data in the Police
Department’s application for the CHRP grant and its performance in meeting
grant objectives and overall accomplishments.

       We found inaccuracies in the information the Police Department
submitted to COPS in its CHRP grant application. To select CHRP grantees,
COPS developed a methodology that scored and ranked each applicant
based on key data submitted by the applicant. While it performed some
limited data validity checks, COPS relied heavily on the accuracy of the data
submitted by grant applicants. As a result, we reviewed the application
statistics the Police Department submitted to COPS and found the application
contained inaccuracies in: (1) the local area unemployment rates for fiscal
years (FY) 2008 and 2009, and (2) the Police Department’s percentage
reduction in civilian law enforcement personnel. We also assessed the effect
of the Police Department’s inaccurate application data and determined that it
                                      i
did not appear to have affected the suitability of the award. However, to
ensure future awards are not affected by inaccurate data, we recommend
that the Police Department enhance its procedures to ensure it submits
accurate data for future award applications. We also found the Police
Department:

  •	 charged $13,790 in unallowable fringe benefits to the CHRP 

     grant;


  •	 charged $6,782 in unallowable officer bonuses and associated

     fringe benefits to the CHRP grant;


  •	 included in its CHRP grant application, $60,870 for police officer
     vacation that was already included as part of officer salaries;

  •	 did not adequately track property items bought with grant funds;

  •	 could not account for $4,743 in property items bought with 

     METH grant funds; and


  •	 did not complete the METH grant project. According to COPS,
     the Police Department did not meet the deadline for requesting a
     second extension of time to expend the funds and the unspent
     $307,885 portion of the grant funds was deobligated and not
     available to complete the project.

      As a result of our findings, we make four dollar-related
recommendations and three recommendations to improve the management
of grants.

     These items are discussed in further detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology appear in Appendix I.

      We discussed the results of our audit with COPS and Police
Department officials and have included their comments in the report, as
applicable.




                                      ii
                               TABLE OF CONTENTS

INTRODUCTION ........................................................................ 1

     The Office of Community Oriented Policing Services .................. 1

     American Recovery and Reinvestment Act................................ 1

     COPS Hiring Recovery Program............................................... 2

     COPS Methamphetamine Initiative Program ............................. 2

     Jackson Police Department..................................................... 2

     Our Audit Approach............................................................... 3


FINDINGS AND RECOMMENDATIONS........................................ 5

     Application Statistics ............................................................ 5

     Internal Control Environment ................................................. 6

         Single Audit..................................................................... 7

         Financial Management System........................................... 7

     Grant Expenditures .............................................................. .8

         Personnel and Fringe Benefit Expenditures ......................... .8

     Drawdowns .........................................................................12

     Budget Management and Control. ..........................................13

     Accountable Property ...........................................................14

     Reporting........................................................................... 15

         Federal Financial Reports .................................................15

         Progress Reports.............................................................16

         Recovery Act Reports ......................................................16

     Compliance with Award Special Conditions ..............................17

     Program Performance and Accomplishments ...........................17

     Conclusion ..........................................................................19

     Recommendations ...............................................................20


APPENDIX I -          OBJECTIVES, SCOPE, AND METHODOLOGY .... 21

APPENDIX II -         SCHEDULE OF DOLLAR-RELATED FINDINGS .. 23

APPENDIX III - OFFICE OF COMMUNITY ORIENTED 

               COMMUNITY ORIENTED POLICING SERVICES'

               RESPONSE TO THE DRAFT REPORT.. ............. 24

APPENDIX IV -         THE CITY OF JACKSON'S RESPONSE TO THE

                      DRAFT REPORT ............................................. 28

APPENDIX V -          OFFICE OF THE INSPECTOR GENERAL

                      ANALYSIS AND SUMMARY OF ACTIONS 

                      NECESSARY TO CLOSE THE REPORT .............. 30

                            INTRODUCTION

       The Department of Justice (DOJ), Office of the Inspector General,
Audit Division, has completed an audit of Office of Community Oriented
Policing Services (COPS) grants awarded to the City of Jackson, Tennessee,
Police Department. We audited a COPS Hiring Recovery Program (CHRP)
grant to hire and fund 10 entry-level sworn officers for 3 years and a COPS
Methamphetamine Initiative (METH) grant to reduce the production,
distribution, and use of methamphetamine. The Police Department was
awarded a total of $2,017,976 to implement the grant programs shown in
Exhibit 1.

EXHIBIT 1: OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
    GRANTS AWARDED TO THE JACKSON POLICE DEPARTMENT
                       COPS       AWARD            AWARD          AWARD
GRANT NUMBER
                     PROGRAM    START DATE        END DATE        AMOUNT
2009-RK-WX-0809        CHRP       7/1/2009        6/30/2012      $ 1,568,000
2007-CK-WX-0324        METH       9/1/2007        8/31/2010         $449,976
            TOTAL:                                               $2,017,976
Source: COPS

      The objective of our audit was to determine whether costs claimed
under the grants were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and the terms and conditions of the
grants. We also assessed the Police Department’s program performance in
meeting grant objectives and overall accomplishments.

The Office of Community Oriented Policing Services

       Within DOJ, COPS assists law enforcement agencies in enhancing
public safety through the implementation of community policing strategies in
jurisdictions of all sizes across the country. COPS provides funding to state,
local, and tribal law enforcement agencies and other private entities to hire
and train community policing professionals, acquire and deploy cutting-edge
crime-fighting technologies, and develop and test innovative policing
strategies.

American Recovery and Reinvestment Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act were to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring

                                      1

technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide
long-term economic benefits; and (5) stabilize state and local government
budgets in order to minimize reductions in essential services, and avoid
state and local tax increases.

       The Recovery Act provided approximately $4 billion to DOJ in grant
funding to be used to enhance state, local, and tribal law enforcement
efforts. Of these funds, $1 billion was provided to COPS to award as grants
for state, local, and tribal governments to hire or retain police officers.

COPS Hiring Recovery Program

       To distribute the Recovery Act money, COPS established CHRP to hire,
rehire, and retain career law enforcement officers. CHRP provided
100 percent of the funding for approved entry-level salaries and benefits (for
3 years) for newly-hired, full-time sworn officer positions, for rehired officers
who had been laid off, or for officers who were scheduled to be laid off on a
future date. COPS received 7,272 applications requesting funding for
approximately 39,000 officer positions. On July 28, 2009, COPS announced
its selection of 1,046 law enforcement agencies as recipients of the $1 billion
in CHRP funding to hire, rehire, and retain 4,699 officers. The grants were
competitively awarded based on data submitted by each applicant related to
fiscal and economic conditions, rates of crime, and community policing
activities.

COPS Methamphetamine Initiative Program

       The COPS Methamphetamine Initiative provided direct funding to
establish and enhance a variety of problem-solving strategies that will
encourage community policing efforts to combat the production, use, and
distribution of methamphetamine. The award may be used to address
problems or issues in a variety of areas, including child endangerment,
enforcement, intelligence gathering, drug courts, partnership development,
precursor chemicals, prevention, production, training, and treatment.

Jackson Police Department

      Jackson, Tennessee, the county seat of Madison County, was founded
in 1822. It is located approximately 85 miles northeast of Memphis and
120 miles southwest of Nashville. With a population of approximately
65,000, Jackson is the largest city in rural West Tennessee. It encompasses
a land area of approximately 49 square miles and serves as West
Tennessee’s economic, cultural, and healthcare center.

                                       2

      For the city’s fiscal year 2012, which runs from July 1, 2011, to
June 30, 2012, the Police Department had 263 personnel, including
220 sworn officers. The mission of the Police Department is to improve the
quality of life for all citizens of the community by reducing the problems
associated with crime, through crime suppression and prevention, jointly
educating its officers and the public, and developing a co-active partnership
with the community.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in the COPS Grant Owner’s Manuals and the
grant award documents. The Grant Owner’s Manuals serve as a reference to
assist grantee agencies with the administrative and financial matters
associated with grants. The manuals were developed by COPS to ensure
that all grantees understand and meet the requirements of the grants. We
also considered applicable Office of Management and Budget and Code of
Federal Regulations criteria in performing our audit. We tested the Jackson
Police Department’s:

   •	 CHRP grant application statistics to determine the completeness
      and accuracy of grantee information submitted in the application;

   •	 internal control environment to determine whether the financial
      and accounting system and related internal controls were adequate to
      safeguard grant funds and ensure compliance with the terms and
      conditions of the grants;

   •	 grant expenditures to determine the accuracy and allowability of
      costs charged to the grants;

   •	 drawdowns (requests for grant funding) to determine whether
      requests were adequately supported and if the Police Department
      managed grant receipts in accordance with federal requirements;

   •	 budget management and control to determine whether the Police
      Department adhered to the COPS-approved budgets for the
      expenditure of grant funds;

   •	 accountable property to determine whether the Police Department
      had effective procedures for managing and safeguarding assets
      acquired with grant funding;


                                      3

  •	 reporting to determine whether the required periodic Federal
     Financial Reports, Progress Reports, and Recovery Act Reports were
     submitted on time and accurately reflect grant activity;

  •	 compliance with award special conditions to determine whether
     the Police Department complied with all of the terms and conditions
     specified in the grant award documents; and

  •	 program performance and accomplishments to determine if the
     Police Department met or is capable of meeting the grants’ objectives.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.




                                    4

                 FINDINGS AND RECOMMENDATIONS

      The Police Department’s CHRP grant application contained three
      instances of incorrect data, but the incorrect data did not appear
      to have affected the suitability of the award. The Police
      Department made salary, fringe benefit, and bonus payments
      that exceeded or were not included in budgeted amounts
      approved by COPS. The Police Department also overestimated
      the cost of fringe benefits in its CHRP grant application. For the
      METH grant, the Police Department did not adequately track
      property items bought with grant funds and some items bought
      were unaccounted for. The Police Department also encountered
      delays in implementing its METH grant project. After 3 years,
      two-thirds of the grant funds that had not been spent were
      deobligated and the Police Department was not able to complete
      the METH grant project. As a result of our audit, we make four
      dollar-related recommendations and three recommendations to
      improve the management of grants.

Application Statistics

      To select CHRP grantees, COPS developed a methodology that scored
and ranked applicants based on data related to their fiscal and economic
conditions, rates of crime, and community policing activities. In general, the
applicants experiencing more fiscal and economic distress, exhibiting higher
crime rates, and demonstrating well-established community policing plans
received higher scores and were more likely to receive a grant. While COPS
performed some limited data validity checks, COPS relied heavily on the
accuracy of the data submitted by grant applicants. In the CHRP Application
Guide, COPS reminded applicant agencies to provide accurate agency
information as this information may be used, along with other data collected,
to determine funding eligibility. In our May 2010 report of the COPS grant
selection process, we found that the validation process COPS used to ensure
the accuracy of the crime data submitted by applicants was inadequate. 1 As
a result, some agencies may have received grant funds based on inaccurate
applications. However, we were unable to determine the number of
applications that included inaccurate data.

     During this audit, we obtained documentation from the Police
Department to support the information it submitted to COPS to secure the
CHRP grant, and we found inaccuracies in the information submitted in the

      1
         U.S. Department of Justice, Office of the Inspector General, A Review of the
Selection Process for the COPS Hiring Recovery Program, Audit Report 10-25, (May 2010).

                                           5

CHRP application. Specifically, we found inaccuracies in the application data
regarding unemployment rates for FYs 2008 and 2009, and the reduction in
civilian law enforcement personnel. Exhibit 2 identifies the difference in the
statistics reported in the application and the actual supported statistic.

           EXHIBIT 2: STATISTICS REPORTED IN THE CHRP GRANT 

            APPLICATION BY THE JACKSON POLICE DEPARTMENT 2

           STATISTIC                      REPORTED             ACTUAL          DIFFERENCE
Unemployment Rate, January
                                           8.2 percent        6.3 percent            1.9
2008
Unemployment Rate, January
                                           3.8 percent        9.4 percent           (5.6)
2009
Reduction in Civilian Law
                                           2.0 percent        7.2 percent           (5.2)
Enforcement Personnel
Source: Jackson Police Department 2009 CHRP Grant Application

       The Police Department official we spoke to could not explain the
differences in the reported statistics. For the unemployment rates, we used
data from U.S. Department of Labor, Bureau for Labor Statistics. The Police
Department official said he may have used a different source to report data.

      Because the application information was used to determine the
grantee’s eligibility to receive the grant, we analyzed the effect of the
inaccurate data that Jackson submitted in its application. We determined
that the inaccurate data did not appear to have affected the suitability of the
award. As a result, we do not question the award of the CHRP grant to
Jackson.

       Because the data that grantees submit are relied upon to award
substantial grants, we believe it is vital that grantees ensure that the data
and information submitted to awarding agencies is accurate. In this case,
the Police Department’s inaccurate application data did not significantly
affect the suitability of its award. Nonetheless, future inaccurate data may
have a substantial effect on award decisions. As a result, we recommend
that the Police Department establish procedures to ensure it submits
accurate information for its future grant applications.

Internal Control Environment

       We reviewed the City of Jackson’s financial management system,
policies and procedures, and Single Audit Reports to assess the risk of

       2
         The actual statistics for unemployment rates are based on U.S. Department of
Labor, Bureau for Labor Statistics data. The actual statistic for the reduction in civilian law
enforcement personnel was based on data provided by the City of Jackson.

                                               6

non-compliance with laws, regulations, guidelines, and terms and conditions
of the grants. The city serves as the fiscal agent for the grants we audited.
We also interviewed management and key personnel with knowledge of the
grant programs to further assess risk.

Single Audit

      According to Office of Management and Budget Circular A-133, an
entity expending more than $500,000 in federal funds in a year is required
to perform a Single Audit annually, with the report due no later than 9
months after the end of the fiscal year. The city’s fiscal year runs from
July 1 through June 30 with the Single Audit report due by March 31 of the
following year. The city’s federal expenditures were $5,104,547 in FY 2010
and $7,701,204, in FY 2011, which required the city to undergo a Single
Audit. We reviewed the city’s Single Audit reports for FYs 2010 and 2011.
Both reports were issued by the due dates and were signed by the
independent auditor.

       The FY 2010 Single Audit identified one finding involving Department
of Transportation, Federal Highway Administration (FHA) grant funds. The
city did not formally adopt a risk assessment as it relates to the Recovery
Act funds within the FHA grant. As part of this finding, the associated
revenues and expenses for the Recovery Act portion of the grant were not
segregated within the general ledger as required by the grant. The city
prepared a risk assessment as part of its corrective action.

       The FY 2011 Single Audit identified one finding involving grant funds.
The city expended a material amount of funds related to a disaster that the
Federal Emergency Management Agency (FEMA) considered to be
unallowable due to the lack of documentation. The report stated that as
part of its corrective action plan, the city was revising reimbursement
requests submitted to FEMA to obtain reimbursement for expenditures
originally considered unallowable. The auditors also identified two issues
that could affect federal awards – timesheets were not signed by a
supervisor and expenditures exceeded appropriated amounts in several of
the city’s designated account funds.

      The city addressed the findings in both Single Audit reports. The
reports identified no findings related to DOJ grant funds.

Financial Management System

      We reviewed the city’s financial management system and interviewed
Police Department and other city officials regarding the financial

                                      7

management system. The city is responsible for the fiscal portion of grant
management. Grant fund drawdowns were based on expenses posted to the
general ledger each quarter. These reimbursements were electronically
deposited into a City of Jackson general account, applied to the general
ledger assigned to the grants, and tracked in the accounting system. The
city’s policies and procedures appeared to ensure timely and accurate
records and payment. We did not identify weaknesses in the city’s financial
management system.

Grant Expenditures

Personnel and Fringe Benefit Expenditures

       Both grants included personnel expenditures. The budget for the
CHRP grant included $1,568,000 for salary and fringe benefits for 10 new
full-time entry-level law enforcement officers for 3 years. The budget for
the METH grant included $90,751 for salary and fringe benefits for a
Methamphetamine Initiative Coordinator for 2 years and $51,865 for
overtime for police officers.

     CHRP Grant

       According to the COPS CHRP Grant Owners’ Manual, grants cover
100 percent of the approved entry-level salary and fringe benefits of each
newly-hired or rehired full-time sworn career law enforcement officer over
3 years. Grant funding is for the entry-level salary and fringe benefits in
effect at the time of the application. Any costs above the approved entry-
level salaries and fringe benefits are the responsibility of the agency.

      At the time of our audit, Jackson had drawn down $1,024,319 of the
grant funds for salaries and fringe benefits. We judgmentally selected two
non-consecutive pay periods and tested whether costs charged to the grant
were computed correctly, accurately recorded, and supported by time and
attendance records. We also compared officer pay rates and positions to
those in the grant budgets approved by COPS.

      We found that costs charged to the grant were computed correctly,
accurately recorded in the accounting records, and supported by time and
attendance records. However, we found that the Police Department
exceeded the maximum allowable amount for salaries and fringe benefits for
some officers. Consequently, we expanded our testing of salaries and fringe
benefits to all $1,024,319 that had been charged to the CHRP grant at the
time of our audit.


                                      8

       We found that, overall, the city charged $7,425 less salaries to the
grant than the budgeted amount approved by COPS. However, two officers’
salaries exceeded the allowable budgeted amount. Exhibit 3 shows the
budgeted entry level salary, actual salary, and overpayments for the two
officers.

  EXHIBIT 3: BUDGETED SALARIES VERSUS ACTUAL SALARIES FOR
               GRANT NUMBER 2009-RK-WX-0809
                                     BUDGETED             ACTUAL
           EMPLOYEE                                                       OVERPAYMENT
                                      SALARY              SALARY
Entry-Level Year 1
             Employee 2470                  $32,700           $33,011                 $311
             Employee 2474                  $32,700           $39,811               $7,111
Entry-Level Year 2
             Employee 2474                  $35,750           $41,495               $5,745
Entry-Level Year 3 3
             Employee 2474                   $5,877             $6,500               $623
       Total Overpayment:                                                         $13,790
Source: City of Jackson Employee Earning Records

       A grantee official told us that both officers were hired under the city’s
“lateral-entry” program and their pay was based on the lateral-entry scale
instead of entry-level salary and fringe benefits for sworn law enforcement
officers. 4 We questioned the $13,790 overpayment of salaries as
unallowable because they exceeded the budgeted amount. The budgeted
amount, which is the entry-level salary, is the ceiling for payments under the
grant. There were no minimums for salaries or fringe benefits. Any
amounts for an officer above the ceiling amounts are unallowable.
We discussed the overpayment of salaries with city officials. On
July 19, 2012, the city corrected the $13,790 overpayment of salaries by
removing these costs from its accounting records and reducing its
July 31, 2012, grant fund drawdown by $13,790.

      We also tested fringe benefits charged to the grants and found that,
overall, the city charged $15,114 less fringe benefits to the grants than the
budgeted amounts approved by COPS. However, seven officers’ fringe
benefit payments exceeded the budgeted amounts by $21,610. Exhibit 4


       3
         We tested expenditures through December 31, 2011, and year 3 had included only
four pay periods for this employee. The amounts reflect budgeted and paid amounts for
those four pay periods. Budgeted salaries are prorated for a partial year of employment.
       4
          Under the lateral-entry program, the Police Department hires experienced officers.
The program allows the city to hire officers who are already trained. The program allows
the city to save funding for training costs.

                                             9

shows the difference in the budgeted fringe benefits, actual fringe benefits,
and overpayments to the seven officers.

    EXHIBIT 4: BUDGETED FRINGE BENEFITS VERSUS ACTUAL
FRINGE BENEFITS PAID FOR GRANT NUMBER 2009-RK-WX-0809 5
                               BUDGETED
                                                       FRINGE
      EMPLOYEE                  FRINGE                                 OVERPAYMENT
                                                    BENEFITS PAID
                               BENEFITS
Entry-Level Year 1
        Employee 2470                 $15,429             $18,453              $3,024
        Employee 2471                 $15,429             $16,357                $928
        Employee 2472                 $15,429             $17,993              $2,564
        Employee 2473                 $15,429             $18,120              $2,691
        Employee 2474                 $15,429             $20,415              $4,986
        Employee 2477                 $12,462             $13,977              $1,515
        Employee 2479                 $15,429             $16,966              $1,537
Entry-Level Year 2
        Employee 2470                    $241                $471                $229
        Employee 2471                 $16,736             $17,132                $396
        Employee 2473                 $12,230             $12,874                $643
        Employee 2474                 $16,736             $19,677              $2,941
Entry-Level Year 3
        Employee 2472                  $2,767              $2,865                $98
        Employee 2474                  $2,767              $2,824                $57
Total Overpayments:                                                          $21,610
Source: City of Jackson Employee Earnings Records

      We questioned the $21,610 in excess fringe benefit payments as
unallowable because those costs exceeded the maximum amounts approved
by COPS. On July 19, 2012, the city removed $7,820 of these fringe
benefits costs from its accounting records and reduced its July 31, 2012,
grant fund drawdown by $7,820, which leaves $13,790 in remaining
unallowable fringe benefits.

      A Police Department official told us that the budgeted amounts for
fringe benefits that were in the Final Funding Memorandum from COPS were
based on projected numbers and estimates. The city exceeded the approved
amounts because on July 1, 2010, the State of Tennessee raised the
employer contribution rate for retirement to 20.76 percent. The retirement
contribution rate changes every 2 years. A City of Jackson official told us


      5
         Budgeted fringe benefits for some officers are prorated because the officers
worked less than a full year. Some overpayments do not equal the difference between the
budgeted and actual amounts because of rounding.


                                          10

the health insurance rates also increased after the city prepared the grant
application.

       We asked COPS about the Police Department’s overpayment of
salaries and fringe benefits and a COPS official told us that these
overpayments could be allowable if: (1) the Police Department did not
exceed the grant award amount, and (2) it requested and received approval
for a budget modification. At the time of our audit, the Police Department
had not exceeded the grant award and had not requested nor received from
COPS a budget modification for the overpayments.

      When actual salary and fringe benefits exceed the budgeted amounts,
the Police Department’s ability to compensate its officers hired under the
CHRP grant throughout the entire grant period could be at risk. We
recommend that COPS remedy the remaining $13,790 in fringe benefits
overpayments and ensure the Police Department revises its procedures to
ensure future salary and fringe benefits costs are charged to the grant in
accordance with the approved grant budget.

        During our review of the Final Financial Memorandum approved by
COPS, we found that fringe benefits included vacation; however, vacation
was already included as part of salary in the grant budget. City officials
agreed that vacation was included as part of salary costs, but told us they
did not recall submitting vacation as a fringe benefit in the grant application.
We discussed this issue with COPS and COPS agreed that vacation could be
included in the grant budget as part of salary or fringe benefits, but not
both. The Police Department’s CHRP application included $1,887 for
vacation for entry-level officers for year 1, $2,031 for year 2, and $2,170 for
year 3. For the 3-year grant period, the Police Department overestimated
its fringe benefit costs for vacation by a total of $6,087 per officer and
$60,870 for the 10 grant-funded officers. 6 We consider the $60,870 to be
funds that could be put to better use and recommend that COPS deobligate
those funds.

      We also found that 10 officers currently employed under the CHRP
grant each received $500 payments on December 8, 2011, and these
payments were charged to CHRP funds. A City of Jackson accountant told us
these were bonuses paid to officers, not cost-of-living adjustment raises. All
city employees received these payments at the request of the Mayor. These
payments are unallowable because they are not included in Jackson’s Final
Funding Memorandum approved by COPS. We question the $6,782 in

      6
         The three amounts attributed to vacation equal $6,088 when rounded individually,
but equal $6,087 when non-rounded amounts are summed.

                                           11

bonuses ($5,000) and associated fringe benefits ($1,782) as unallowable
grant expenditures.

       METH Grant

       We reviewed the general ledger account for the METH grant and
identified $143,651 (120 transactions) charged to the grant. We
judgmentally selected 26 transactions totaling $74,940 (52 percent of the
amount charged) for testing. We found that all 26 transactions were
properly authorized, recorded, and supported.

Drawdowns

      COPS requires grantees to minimize the amount of cash-on-hand by
requesting funds based on immediate cash disbursement needs. Grantees
may draw down funds in advance, but the funds must be used within 10
days.

       As of July 12, 2012, the city had drawn down $1,098,425 from the
CHRP grant and $142,091 from the METH grant. City officials told us that
the city’s quarterly drawdown amounts were based on expenditures in the
accounting records. We found that the city’s drawdowns matched its grant
expenditures recorded in the accounting records for the CHRP and the METH
grant.

      For the METH grant, Jackson was awarded funds totaling $449,976.
The grant period started September 1, 2007, and COPS extended the award
through August 31, 2010. As of November 29, 2010, 90 days after the
grant end date, the city had expended only $142,091 of the funds. As a
result, the remaining funds totaling $307,885 were de-obligated.

       Police Department officials told us they did not spend the majority of
the grant funds because COPS had not approved their request for a budget
modification. In its original grant proposal, the city requested funding for a
position to travel to pharmacies in the area to gather data on
pseudoephedrine purchases. 7 However, because a Tennessee State
Methamphetamine Task Force had the electronic capabilities to obtain the
data, the Police Department no longer needed to fill the position. A Deputy
Chief of Police told us that on August 12, 2010, he requested an extension
for the grant, which was due to expire on August 31, 2010, and COPS
verbally approved the extension in September 2010. The Deputy Chief told
       7
          Pseudoephedrine is medication used to relieve nasal congestion caused by colds,
allergies, and hay fever and is a common ingredient used to make methamphetamine.


                                            12

us he documented COPS’ approval in a subsequent grant progress report
and continued working with COPS to modify the grant budget, but in
January 2011, COPS deobligated the remaining $307,885 in grant funds.

       We asked a COPS official why the remaining funds were deobligated
and we were told that COPS follows the OJP Financial Guide, which requires
that a request for a grant extension must be submitted 30 days prior to the
end date of the award; however, the city did not meet the 30 day criteria. 8
The award ended August 31, 2010, but the city did not request an extension
until August 12, 2010.

Budget Management and Control

       Criteria established in 28 Code of Federal Regulations (CFR) Section
66.30 addresses budget controls for grantee financial management systems.
According to the CFR, grantees are permitted to make changes to their
approved budgets to meet unanticipated program requirements. However,
whenever the awarding agency’s shares exceeds $100,000, the movement
of funds between approved budget categories in excess of 10 percent of the
total award must be approved in advance by the awarding agency. The
10-percent rule was applicable to both COPS grants awarded to the Police
Department. While the CHRP grant was still in progress at the time of our
audit, the city appeared to remain within the approved budget allowance for
each category for this grant. We determined the city did not transfer funds
among direct cost categories in excess of 10 percent of the award amount
for the METH grant.

       In addition to remaining within the approved budget allowance, the
city must ensure it does not supplant local funds with grant funds.
According to the 2009 CHRP Grant Owner’s Manual, CHRP funds should
supplement, not supplant, funds already committed from local sources. The
non-supplanting requirement means that officers hired after the start date of
the grant must be in addition to those currently budgeted (funded) from
local sources. In addition, grantees must take active and timely steps to
fully fund law enforcement costs already budgeted as well as fill all locally-
funded vacancies resulting from attrition over the life of the grant.



       8
         The OJP Financial Guide serves as the primary reference manual to assist DOJ
award recipients in fulfilling their fiduciary responsibility to safeguard grant funds and
ensure funds are used for the purposes for which they were awarded. The COPS Office and
designated representatives from OJP monitor the financial aspects of grants, including
special request submissions. COPS followed the OJP Financial Guide requirement regarding
the request for a grant extension.

                                            13

      As allowed by CHRP, Jackson originally submitted a grant application
for funds to retain 10 officers who were scheduled to be laid off. In January
2009 the Mayor issued a hiring freeze and the city reduced the Police
Department’s budget by 10 sworn officer positions. Consequently, the city
changed its grant application to use the funds for newly hired officers.
Because the city provided documentation pertaining to its budget shortfalls
and hiring freeze we found no evidence of supplanting. All 10 officers paid
with grant funds were newly hired, did not fill vacancies budgeted with local
funds, and did not begin working before the start date of the CHRP grant.
We also found no evidence that METH grant funds were used to supplant
funds from local sources.

Accountable Property

      According to 28 CFR Section 66.32, grantees must maintain property
records that include: a description of the property; a property identification
number; cost; the location, use, and condition of the property; and any
ultimate disposition data including the date of disposal and sale price of the
property. To ensure adequate safeguards to prevent loss, grantees must at
least once every 2 years take a physical inventory of the property and
reconcile the results to the property records. Property items valued at less
than $5,000 may be sold or otherwise disposed of with no obligation to the
awarding agency. For disposed property items valued at more than $5,000,
the awarding agency’s share of the proceeds is based on the awarding
agency’s percentage of the purchase price.

      The Police Department did not purchase accountable property items
using CHRP grant funds, but it used METH grant funds to purchase 40
equipment items valued at $22,872. We obtained the property records for
these items from the city’s property records system and judgmentally
selected 23 items valued at $20,177 to determine if the Police Department
had custody of the items and the items were being used for grant purposes.

       The Police Department could not locate seven of our sample items
valued at a total of $4,743. The seven items consisted of two desktop
computers, a laptop computer, camera lens and bag, printer, DVD player,
and camcorder. The property records did not indicate that these seven
items had been disposed of. The property records identified the city
department to which the property has been assigned, but the records did not
specify where each item was located. Each city department was responsible
for tracking the specific location of each property item. The Police
Department could not locate the seven items we identified as missing
because it did not track the specific location of its property items. A Police
Department official told us that some of the missing items may have been

                                      14

returned to the city and disposed of. We asked a city official about the
seven missing items, but we were told the city had no records of disposal of
these items. We question the $4,743 value of the missing items as
unsupported grant costs. We also recommend the Police Department
implement procedures to improve its system of property records by tracking
where the items are located and whether they have been disposed of.

       One property item we sampled was assigned two separate
identification numbers in the property records system, and it appears the
city provided two property tags for the same item. Because this appears to
be an isolated incident, we make no recommendation about one property
item having two identification tags. We physically verified the remaining
15 items and verified that the items were being used for grant purposes.

Reporting

      COPS monitors the status of grant funds and progress towards grant
goals through grantees’ quarterly financial and grant progress reports.
Recipients of COPS CHRP grants must also submit to FederalReporting.gov
quarterly reports on the amount of Recovery Act funds expended and
numbers of jobs created or saved.

Federal Financial Reports

      The financial aspects of CHRP grants are monitored through Federal
Financial Reports (FFR). 9 According to the Grant Owner’s Manuals, FFRs
should be submitted within 30 days of the end of the most recent quarterly
reporting period. Even for periods when there have been no program
outlays, a report to that effect must be submitted. Funds or future awards
may be withheld if reports are not submitted or are excessively late.

       We reviewed the last four FFRs submitted to COPS for the CHRP grant
and for the METH grant. We found that all eight FFRs were submitted on
time. By comparing the amounts reported in the FFRs to the accounting
records, we also reviewed the accuracy of the FFRs. We found that for all
eight reports we tested the reported expenditures on the FFRs matched the
city’s accounting records.




       9
          Effective October 1, 2009, the SF-425 Federal Financial Report (FFR) replaced the
SF-269 Financial Status Reports (FSRs). For consistency, we use the term “FFR” throughout
this report when discussing any quarterly financial reports.

                                            15

Progress Reports

       Progress reports provide information relevant to the performance of an
award-funded program and the accomplishment of objectives as set forth in
the approved award application. For CHRP grants, the COPS Grant Owners’
Manual requires grantees to submit progress reports within 30 days after the
end of the calendar quarter. For the METH grant, we verified with a COPS
official that progress reports were due 30 days after each quarter ended.

      We determined that Deputy Chiefs of Police collected information to
prepare progress reports. They completed the progress reports
electronically using the COPS online submission form.

      We reviewed the last eight quarterly progress reports submitted to
COPS for the CHRP grant and the last two annual progress reports submitted
to COPS for the METH grant. We found that, in general, progress reports
were timely submitted. For the CHRP grant, the report for the quarter ended
September 30, 2011, was submitted 1 day late. For the METH grant, the
report for the period ended December 31, 2009, was submitted 2 days late.
We consider these late reports immaterial and make no recommendation.

      We also tested the accuracy of the quarterly progress reports. For the
CHRP grant, the Police Department stated that it had 10 new officers on staff
throughout the grant period. The accuracy of these reports is supported by
the accounting records.

       For the METH grant, the progress reports explained difficulty in
meeting goals because of procurement problems and a change in grant
administration. The Police Department attributed its difficulty to meet goals
to difficulty in receiving COPS approval for a budget modification. The Police
Department did not evaluate the success of the program because it only
spent about one third of the award amount.

Recovery Act Reports

      In addition to normal reporting requirements, grantees receiving
Recovery Act funding must submit quarterly reports, which require both
financial and programmatic data. The Recovery Act requires recipients to
submit their reporting data through FederalReporting.gov, an online web
portal that will collect all reports. Recipients must enter their data no later
than 10 days after the close of each quarter beginning September 30, 2009.

     A Deputy Chief of Police was responsible for compiling and submitting
Recovery Act reports electronically through FederalReporting.gov. We tested

                                      16

the 8 most recent reports submitted to FederalReporting.gov and found that
7 of the 8 reports were submitted on time. The report for the quarter ended
June 30, 2010, was due July 10, 2010, but was submitted
2 days late on July 12, 2010. This was the second report submitted. All
subsequent Recovery Act reports were submitted on time. We consider the
one late report immaterial and make no recommendation. We also
evaluated the accuracy of the four most recently submitted Recovery Act
reports by verifying the reported numbers to source documentation
maintained by the Police Department. We found that the reports were
accurate.

Compliance with Award Special Conditions

       Award special conditions are included in the terms and conditions for a
grant award and are provided in the accompanying award documentation.
Special conditions may also include special provisions unique to the award.
The CHRP grant contained a special condition requiring that funding should
only be used for payment of approved full-time entry-level sworn officer
salaries and fringe benefits. As discussed in the Grant Expenditures section
of this report, we found that the city over-charged the grant for salary and
fringe benefits.

Program Performance and Accomplishments

       In the CHRP Application Guide, COPS identified the methods for
measuring a grantee's performance in meeting CHRP grant
objectives. According to COPS, there were two objectives to the
CHRP grant: (1) to increase the capacity of law enforcement agencies to
implement community policing strategies that strengthen partnerships for
safer communities and enhance law enforcement's capacity to prevent,
solve, and control crime through funding additional officers and (2) to create
and preserve law enforcement officer jobs. Quarterly progress reports
describing how CHRP funding was being used to assist the grantee in
implementing its community policing strategies and detailing hiring and
rehiring efforts were to be the data source for measuring performance.
However, COPS did not require grantees to track statistics to respond to the
performance measure questions in the progress reports. In addition, the
grantee’s community policing capacity implementation rating, identified in
the progress report, would not be used in determining grant compliance.

        Even though COPS did not require a grantee to track statistics to
support its performance, it does require a grantee to be able to describe that
it is initiating or enhancing community policing in accordance with its
community policing plan. The COPS Office defines community policing as a

                                      17

philosophy that promotes organizational strategies, which support the
systematic use of partnerships and problem-solving techniques, to
proactively address the immediate conditions that give rise to public safety
issues such as crime, social disorder, and fear of crime. According to the
2009 CHRP Grant Owner’s Manual, grants must be used to initiate or
enhance community policing activities. All newly hired, additional or rehired
officers (or an equal number of redeployed veteran officers) funded under
CHRP must engage in community policing activities.

     The city noted in its application that the goal and objective of the
CHRP grant was to rehire 10 Project Safe Neighborhood police officers who
were scheduled for lay-off on July 1, 2009. The grantee hired 10 officers on
November 2, 2009. The grantee received permission from the COPS Office
on December 18, 2009, to change the officer category from 10 re-hired to
10 newly hired officers.

      The 10 new officers were assigned to the uniform patrol division.
According to the Annual Progress Report for the year ended
December 31, 2011, officers use a problem-solving model consisting of
scanning, analysis, response, and assessment. Officers used this model
when patrolling districts and solving problems. Officers used computer
crime statistics to identify emerging crime trends and adjust enforcement
actions accordingly. We interviewed three of the officers hired under the
CHRP grant. The officers told us that they were generally performing the
duties outlined in the initiatives of the community policing plan.

      Grantees must retain all CHRP officer positions for a minimum of
12 months at the conclusion of the grant. The Police Department planned to
retain the additional sworn officer under this grant for a minimum of
12 months using general funds as the funding source. A Deputy Chief said it
was reasonable to retain the 10 positions for 12 months with general funds
because the city had recently annexed additional property and would be
receiving additional tax revenues. The city projected annual revenues to
increase $950,000 annually with the annexation of the new area. The Police
Department provided a letter from the Mayor explaining that the city plans
to fund the officer positions with general funds through June 30, 2014, which
is 24 months after the award ends on June 30, 2012. The city's fiscal year
runs from July 1 through June 30.

       The goals and objectives for the METH grant were to increase the
effectiveness of enforcement activities; safety and effectiveness of
manufacturing investigations; and community awareness, involvement, and
prevention of crime. The city stated in its application that it would use the
grant funds to:

                                     18

  •	 purchase up-to-date equipment needed by officers working clandestine
     methamphetamine labs to identify chemicals that pose a threat to the
     public;

  •	 replace expiring medical supplies on the Drug Endangered Children’s
     Response Vehicle and other equipment needed to conduct clandestine
     lab and methamphetamine trafficking investigations;

  •	 provide updated awareness training to law enforcement officers and
     the community;

  •	 purchase or publish educational and reference materials for the

     community, law enforcement, and first responders; and


  •	 hire a Project Coordinator to coordinate training events, disperse
     educational materials, and maintain administrative records and data
     relating to the grant.

      As of October 26, 2010, the city had drawn down $142,091 of METH
funds, which was only 32 percent of the grant award. The grant expired on
August 31, 2010. We asked a grantee official what progress the Police
Department had made implementing the goals and objectives considering
the limited drawdowns. The official told us the Police Department used the
grant funds to train officers in methamphetamine laboratory work and
investigations, provide overtime to more aggressively investigate
methamphetamine laboratory operations, and conduct covert enforcement
operations targeting illegal purchases of pseudoephedrine. The covert
operations yielded 135 arrests related to methamphetamine and other felony
drug related arrests. We concluded that the Police Department partially met
the goals and objectives of the METH grant.

Conclusion

       We found that the Jackson Police Department’s CHRP grant application
contained three instances of incorrect data, but the incorrect data would not
have changed COPS’ award decision or award amount. The Police
Department overestimated the cost of fringe benefits in its CHRP grant
application and made salary, fringe benefit, and bonus payments that either
exceeded the entry-level rate or were not included in budgeted amounts
approved by COPS. For the METH grant, some equipment items bought with
grant funds were not accounted for and the Police Department only partially
met the goals and objectives of the grant. As a result of our audit, we make
four dollar-related recommendations and three recommendations to improve
the city’s management of grants.

                                     19

Recommendations

    We recommend that COPS:

  1. Require the Police Department to establish procedures that ensure
     future grant applications contain accurate information.

  2. Remedy $13,790 in excess fringe benefits paid with CHRP grant funds.

  3. Require the Police Department to implement procedures that ensure
     salary and fringe benefit costs are accurately charged to the 2009
     CHRP grant.

  4. Deobligate $60,870 in CHRP grant funds for officer vacation that were
     already included as part of officer salaries.

  5. Remedy $6,782 in bonuses and associated fringe benefit costs charged
     to the CHRP grant.

  6. Remedy $4,743 in METH grant funds spent on property items that are
     unaccounted for.

  7. Require the Police Department to implement procedures to improve its
     system of records for property items bought with grant funds including
     where the item is located and whether the item has been disposed of.




                                   20

                                                             APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

       The objective of our audit was to determine whether costs claimed
under the grants were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and the terms and conditions of the
grants. We reviewed performance in the following areas: (1) internal
control environment; (2) grant expenditures; (3) drawdowns; (4) budget
management and control; (5) accountable property; (6) reporting, including
financial, progress, and Recovery Act reports; (7) compliance with special
award conditions; and (8) program performance and accomplishments.
Matching costs, program income, and monitoring of subgrantees and
contractors were not applicable to the grants we audited. For the CHRP
grant, we also reviewed the accuracy of the grant application statistics and
the city’s plan to retain the officers at the conclusion of the grant period.

      We conducted this performance audit in accordance with Generally
Accepted Government Auditing Standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

     Our audit scope covered COPS Hiring Recovery Program Grant Number
2009-RK-WX-0809 and COPS Methamphetamine Initiative Grant Number
2007-CK-WX-0324 awarded to the Jackson Police Department.

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in laws, regulations, Office of Management
and Budget Circulars, COPS Grant Owners’ Manuals, the OJP Financial Guide,
and special conditions of the awards described in the grant award
documents.

       In conducting our audit, we performed sample testing in the areas of
grant expenditures and accountable property. We employed a judgmental
sampling design to obtain broad exposure to numerous facets of the grants
reviewed, such as dollar amounts or expenditure category. This non-
statistical sample design does not allow projection of the test results to the
universes from which the samples were selected.



                                      21

      In addition, we reviewed the timeliness and accuracy of financial and
grant progress reports, evaluated performance to grant objectives, and
determined the completeness and accuracy of grantee information submitted
in the CHRP application; however, we did not test the reliability of the
financial management system as a whole.




                                    22

                                                                       APPENDIX II

            SCHEDULE OF DOLLAR-RELATED FINDINGS

                   DESCRIPTION                              AMOUNT                  PAGE

Unallowable Costs:

2009-RK-WX-0809:
   Unallowable Fringe Benefit Costs                                   $13,790         10
   Unallowable Employee Bonuses                                        $6,782         11
   Total Unallowable Costs                                           $20,572

Unsupported Costs:

2007-CK-WX-0324:
   Unsupported Accountable Property                                     $4,743        14
   Total Unsupported Costs                                             $4,743

    Total Questioned Costs 10                                        $25,315


Funds To Better Use:

2009-RK-WX-0809:
   Vacation Already Included as Part of Salary                        $60,870         11
   Total Funds to Better Use 11                                      $60,870

    Total Dollar-Related Findings                                    $86,185




       10
           Questioned costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.
       11
          Funds to better use are funds that could be used more efficiently if management
took actions to implement and complete an audit recommendation, including deobligation of
funds from programs or operations.


                                            23

                                                                                       APPENDIX III

OFFICE OF COMMUNITY ORIENTED POLICING SERVICES’
          RESPONSE TO THE DRAFT REPORT




                     u.s. D E PARTM EN T O F J USTI CE
                     OFF ICE O F C OM MUN IT Y ORIENTED P O LI C I NG SE RV I CES
                     Gram Operations Directorate/ Aud it Liaison Division
                                                                                     COPS
                     145 N Street, N.E., Washington, DC 20530



                                               MEMORANDUM


     Via Email and u.s. Mail
     To:           Ferris B. Polk
                   Regional Audit Manager
                   Office o f the I.nspector General
                   Atlanta Regional Audit Offi ce

     From:          Karl W. Bickel     1/. . . . f.l
                    Senior Policy Ar~          I   d
     Date:          September 24, 20 12

     Subject:       Response to Draft Audit Report and request for cl osure of Audit
                    Recommendation 7 for the Draft Audit Report dated August 30, 201 2, Jackson
                    Police Department, Jackson, Tennessee, ORI # TN05 701.

            This letter serves as COPS' response to the Draft Audit Report dated August 30, 20 12,
     Jackson Police Department, Jackson, Tennessee, ORJ # TN0570 l , regarding COPS CHRP
     Hiring Grant # 2009-RK -WX-0809 and CO PS Meth Grant #2007-CK-WX-0324 as well as a
     request for the closure of Recommendation 7 of the report.

     Recommendation 1- Require the Police Denartment to establish procedures that ensure
     futu re gran t applications contain accurate information.

      Status: N/A (draft recommendation)

      Discussion : The COPS Offi ce agrees that grantees should have well documented po licies and
      procedures that ensure future grant applications contain accurate in forma tion. After reviewi ng
      your Draft Report, COPS contacted the grantee and it was agreed that the grantee would prepare
      and submit for OIG review policies and procedures covering accuracy ofinfonnation contained
      in futu re grant applications.

      Action Taken: CO PS is working with the grantee to develop poli cies and procedures related to
      the accuracy of in formati on contained in fu ture grant appl icat ions.

      Request: Based on the discussion and planned actions, COPS requests reso lution of
      Rrecommendation 1.




                                                         24

Ferris B. Polk, Regional Audi t Manager, DIG
September 24, 2012
Page 2

Recommendation 2- Remedv $13,790 in excess fringe benefits paid with CH RP grant funds.

Status: N/A (draft recommendation)

Discussion: COPS agrees that grantees should only charge allowabl e costs to their grants . After
reviewing your Draft Report, CO PS contacted the grantee and it was agreed there was an
overpayment 0[$13 ,790 in grant fund s.

Action Taken: The grantee reduced their drawdown of funds with their July 3 ),2012 request
fo r reimbursements by $ 13,790. CO PS is working with the grantee to secure documentation in
support of their action.

Request: Based on the di scuss ion and planned actions, COPS requests reso lution of
Recommendation 2.




Status: N/A (draft recommendation)

Discussion: The COPS Office agrees grantees should have procedures that ensure salary and
fringe benefit costs are accurately charged to the 2009 CHRP grant. After reviewing your Draft
Report, COPS contacted the grantee and it was agreed that the grantee would prepare and submit
for 0 1 review policies and procedures ensuring salary and fr inge benefit costs are accurately
      0
charged to the 2009 CHRP grant.

Action Taken: COPS is working with the grantee to deve lop wri tten procedures that ensure
salary and fringe benefit costs are accurate ly charged to the 2009 CHRP grant .

Request: Based on the di scussion and planned actions, CO PS requests resolution of
Recommendation 3.

Recommendation 4- Deohligate $60,870 in CHRP grant funds for officer vacation that were
already included as part of officer salaries.

Statu s: N/A (draft recommendation)

Discussion: The COPS Office agrees grantees shou ld not include officer vacatio n time in botb
salaries and fringe benefits. After revi ewing your Draft Report, COPS contacted the grantee and
The City of Jackson Police Department refutes the recommendation to deobli gate payment of
$60,870 in CHRP grant fund s for officer vacat ion. Vacation time is paid time and is incl uded as
part of the annual salary. In other words, compensation for vacation time is not over and above
the annual salary. Wben an officer uses a vacation/annual day he is paid the same as ifhe
actually worked tbe 8 bo urs for his regular shift. We do not tbi nk the City should be held
accountable for repayment of this $60,870 as this was part of the annual salary compensation and




                                               25

Ferris B. Polk, Regional Audit Manager, OIG
September 24, 201 2
Page 3

not in add ition to. An employee is not paid for more than 2080 hours annua ll y and these hours
were included as part of the annual pay. A copy of the city employee handbook is attached to
show policy on annual/vacation time as well as example of time card for officer under this grant
using annuallvacation time.

Action Taken: COPS is working with the grantee to secure additional documentati on to support
the grantee's position.

Request: Based on the di scussion and planned actions, CO PS requests resolution of
Recommendation 4.

Reco mmendation 5- Remcdy $6,782 in bonuses and associated fringe ben efi t costs charged
to the C"RP grant.

Status: N/A (draft recommendation)

Oisc ussion : The COPS Offi ce agrees grantees should not include bonuses in grant fri nge benefit
costs. After reviewing your Draft Report, COPS contacted the grantee and it was agreed that the
grantee would repay the grant $6,782.

Action Taken: The grantee has agreed to reimburse the grant in the amount of$6,782 and
COPS is working with the grantee to have the funds returned to the grant.

Req uest: Based on the di scussion and planned acti ons, COPS requests resolution of
Recommendation 5.

Recommendation 6- Remedy $4,743 in MET" grant funds spent on properety items that
are unaccounted for.

Status: N/A (draft recommendation)

Discussion : The COPS o m cc agrees grantees should account for all property items paid for with
COPS grant fund s. After reviewin g your Draft Report, COPS contacted the grantee and it was
agreed that the grantee would work with COPS to close thi s recommendation.

Action Taken: The grantee is working with COPS to cl ose this recommendation and has
already developed the attached written procedures to that effect.

Request: Based on the discussion and planned actions, COPS requests reso lution of
recommendation 6.

Recommendation 7- Require the Police Department to implement procedures to improve
its system of records (or propertv items bought with grant funds including whcre the item
is located and whether the item has been disposed of.




                                               26

Ferris B. Polk, Regional Audit Manager, OIG
September 24, 2012
Page 4

Status: N/A (draft recommendation)

Discussion: The CO PS Offi ce agrees that grantccs sho uld have procedures that ensure the
accounting for property items bought with COPS grant funds. After rev iewing your Draft Report,
CO PS contacted the grantee and it was agreed that the grantee would prepare and submit for OIG
review policies and procedures ensuring their accounting for property items bought with COPS
grant fund s.

Action Taken: The grantee has developed the attached written procedures ensuring their
accounting for property items bought with COPS grant funds.

Request: Based on doc umentation submitted by the grantee , CO PS requests that this
recommendation be closed.

        Based on the above di scussion and pl anned action s, CO PS considers the subj ect report
reso lved and requests written acceptance ofthis detennination from your offi ce. In additi on,
based on the documentat ion subm itted by the grantee, COPS considers Recommendation 7 of the
Draft Audit Report closed as we ll . Wc request written acceptance of this determination fro m
your o ffi ce. Once written acceptance of this determination is rece ived from your office, COPS
will noti fy the grantee ofthe closure.

       Thank you very much for the opportunity to rev iew and respond to thi s Draft Audit
Rreport. If you have any questio ns regarding thi s memorandum , please do not hesitate to contact
me at (202) 5 14-59 14 or via email at KarI.Bickel @usdoj,gov.


Attachments:
       Di sposition of Assets Forms (2)
       Fi xed Asset Location Form


ce:    Audit Liai son Office (AL O@usdo;,gov)

       Nancy Daniels
       Admi nistrative Assistant
       Audit Liaison Division

       Aud it File

       Grant files:    2009-RK-WX-0809
                       2009-CK-WX-0324

ORI #: TN0570 1




                                               27

                                                                                                  APPENDIX IV

THE CITY OF JACKSON’S RESPONSE TO THE DRAFT REPORT




       SEPTEMBER       f"  2012
       GRANTEE RIlSPONSE TO US DEPARTMENT OF J USTICE AND TIlE COPS OFFICE;

          I.   The Cily of Jackson Police Department did not imcnlionally provide inaccurulc
               inliJrmation. Statistics regarding unemployment rales thaI were submitted wilh. the
               original grant document were received from our City Planning Department and were
               considered estimated unemployment rates for this area. However, Ihe City of Jackson
               Police Department commi ts 10 being more diligent in Ihe future 10 ensure accuracy of
               lnlQr mat,on prOV1"d Cd.
               . c     I.


         2. The overpayment ofS 13.790 in excess fringe benefits paid with CHRP granl funds was
            remedied by reducing our drawdown of funds with our luly 31,2012 request for
            reimbursements. The fringe benefits were in excess due to the salaries of the lateral entry
               officers' hired being more than the ~ntry level salaries as stated in the grant. This has
               been noted and has been cOrTe<:tcd.

          3. The C ity of Jackson Pol ice Department will ensure that al! future charges for salaries and
             benefits wil! be accurately charged 10 the 2009 C HRP grant. Processes have been
             implemented to review this and ensure compliane~.

          4. The City of Jackson Volice Department refutes the recommendation to deobligate
             payment 0[$60,870 in CHR P grant funds for officer vacation. Vacation time is p<lid time
             and is included as pari of the annual salary. [n othcr words, compensation for vacation
             time is not over and above the annual saJary. When an officer uses a vacation/annual day
             he is paid the same as if he actually worked the 8 hours for his regular shift. We do not
             think the City should be hcld accountable for repayment ofthi5 $60,870 as Ihis was part
             of the annual salary compensation and IIOt in addition to. An employee is not paid for
             more than 2080 hours annually and these hours were included as part of the annual pay.
             A copy of the city employce handbook is attached to show policy on unllua[/ vru:ation
             time as well as el(ampJe of time card 'or ollicer under this grant using annual/vacation
             time.

          5. The City of Jackson Police Department does acknowledge that bonuses and assoc iated
               fringe bencfits were paid ineOrre<:lly from the CHRP grant and is ....1l1ing 10 reduce grant
               proceeds by $6.782. All city employees received th is bonus in December of2011 per the
               Mayor's direction and when checks were cut these officers were paid from (he normal



          107 E. Mlli" Swe/?I. Suite 104     Jacbon. TN 38301        73/ -425-8243     FlU 731 -425 -92 IH




                                                        28

   account that their salaries were paid from without realizing that this was above and
   beyond what was allocated by the grant.

6. The City of Jackson Police Dcpartment docs acknowledge that property items purchased
   under the MEnl grant for $4,743 could not be located. It is our bcliefthat these wcre
   printers and computers that had been disposed of due to end of life cycle or maintenance
   issucs beyond repair but could not locate proper disposal documentation, An improved
   process for tracking property items such as these fixed assets has been implemented for
   purchase, usage, and disposal of all asscts purchased with grant funds . Copy of disposal
   form is attached.

7. Thc City of Jackson Policc Dcpartment has implemcnted improvcd proccdures for thc
   tracking of property items such as fixed assets being tracked as to where it is being
   utilized as well as better records for disposal of all assets at end of life cycle. At the time
   of purchasc, asset tag is assigned with description entered into thc City's fixed assct
   system. As~et tag along with copy of invoice paid is sent to the Police Departme nt at
   which time they photocopy this for their files as well as noting who the asset has been
   assigned to issuing the tag and a copy of the invoice to that unit utilizing the property
   item. Disposal fonn is attached.

8. While not a recommendation it was noted in the drall of the report that the City of
   Jac kson Police Department did not complete the METH gr,m! project. The report stated
   that we d id not meet the deadline for requesting a second extension of time 10 expend the
   unspent $307,885 portion oflhe grant funds and therefore these were deobligated. We
   followed the COPS procedures for requesting extensions which stated thai the extension
   request must be received by the grant end date which in our c~e was. Following the
   COPS requirements for grant extension by submitting in AugUSt prior to the end date of
   the grant, we do not feel that these funds should be deobligated. We request that this be
   reviewed and funds reallocated to the City of Jackson Police Department.

    Respectfully submitted,

     leu( kf!O
    Karen Bcll
    Finance Director
    City of Jackson, TN




                                              29

                                                            APPENDIX V

              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft audit report to COPS and the City of Jackson.
The COPS response is incorporated in Appendix III and the City of Jackson’s
response is incorporated in Appendix IV. The following provides the OIG
analysis of the responses and summary of actions necessary to close the
report.

Analysis of the City of Jackson Response

      In response to our audit report, the city concurred with all
recommendations except Recommendation 4, as discussed below, and
discussed the actions it will implement in response to our findings.
However, the city also responded to information in our report that did not
pertain to our recommendations. We provide the following reply to these
statements before discussing specific responses to each of our
recommendations and the actions necessary to resolve or close those
recommendations.

       In its response, the City of Jackson noted our discussion of its METH
grant project not being completed. The city observed that our report states
it did not meet the deadline for requesting a second extension of time to
expend the grant funds and, consequently, the grant funds were
deobligated. The city further states that it believes it met the requirements
for requesting a grant extension and it requests that the deobligation
decision be reviewed and the deobligated funds be reallocated to the Police
Department.

      As noted on page 13 of the report, a COPS official told us the METH
funds were deobligated because the city did not request a grant extension
30 days prior to the end date of the award as required. This appears
consistent with a Deputy Chief of Police telling us that on August 12, 2010,
he requested an extension for the grant, which was due to expire on
August 31, 2010. We report this information to demonstrate COPS’ basis for
deobligating the grant funds, and we did not assess the reasonableness of
COPS’ decision regarding the deobligation. The city’s request that the
deobligation decision be reviewed and funds be reallocated is a matter
beyond the scope of this audit. That decision should be the subject of
separate discussion between the city and COPS.

                                     30

Summary of Actions Necessary to Resolve and Close the Report:

  1. Resolved.	 COPS concurred with our recommendation that the Police
     Department establish procedures that ensure future grant applications
     contain accurate information. COPS stated that it is working with the
     grantee to develop policies and procedures related to the accuracy of
     information contained in the future grant applications.

     The City of Jackson also concurred with our recommendation and
     stated that the Police Department commits to being more diligent in
     the future to ensure the accuracy of information provided.

     This recommendation can be closed when we receive and review
     procedures the Police Department implemented to ensure future grant
     applications contain accurate information.

  2. Resolved.	 COPS concurred with our recommendation that it remedy
     $13,790 in excess fringe benefits paid with CHRP grant funds. COPS
     stated that the grantee reduced its July 31, 2012, drawdown request
     by $13,790 to remedy the funds and is working with the grantee to
     secure documentation to support the action.

     The City of Jackson also concurred with our recommendation and
     stated that the Police Department reduced its July 31, 2012,
     drawdown by $13,790.

     This recommendation can be closed when we receive and review
     documentation showing the July 31, 2012, drawdown was $13,790
     less than the CHRP expenditures for the drawdown period.

  3. Resolved.	 COPS concurred with our recommendation that the Police
     Department should implement procedures that ensure salary and
     benefit costs are accurately charged to the 2009 CHRP grant. COPS
     stated that it is working with the grantee to develop written
     procedures that ensure salary and fringe benefit costs are accurately
     charged to the grant.

     The City of Jackson also concurred with the recommendation and
     stated that processes have been implemented to review accuracy and
     ensure compliance.

     This recommendation can be closed when we receive and review
     procedures the Police Department implemented to ensure salary and
     benefit costs are accurately charged to the grant.

                                    31

4. Unresolved.	 COPS concurred that grantees should not include officer
   vacation time in both salary and fringe benefits, but did not concur
   with our recommendation that COPS deobligate $60,870 in CHRP grant
   funds for officer vacation that was already included as part of officer
   salaries. COPS restated as its response the City of Jackson’s position
   noted in the next paragraph. COPS stated that it is working with the
   grantee to secure additional documentation to support the grantee’s
   position.

  The City of Jackson stated that it “refutes the recommendation to
  deobligate the payment of $60,870.” The city stated that
  compensation for vacation time is not over and above the annual
  salary. It further stated that officers using a vacation day are paid the
  same as if they worked 8 hours for a regular shift. The city believes it
  should not be held accountable for repayment of $60,870.

  However, our recommendation does not require the repayment of any
  costs. As noted on pages 11 and 12, the grant award provided
  funding for salary and fringe benefits so that vacation costs were
  included in both salary and fringe benefits. To explain further, the
  COPS CHRP Final Funding Memorandum issued to the city on
  August 5, 2009, noted that the city would be reimbursed for the
  following approved cost categories.

   Year 1 Salary:                                              $32,700

   Year 1 Fringe Benefits:
       Social Security                            $2,027
       Medicare                                     $474
       Health Insurance                           $4,030
       Life Insurance                               $858
       Vacation                                   $1,886
       Retirement Pension                         $6,154
       Subtotal Fringe Benefits                                $15,429

   Total Year 1 Salary and Fringe Benefits                     $48,129

  As shown in this table, the approved fringe benefits included separate
  costs for vacation even though those costs were covered in the
  approved salary amount. However, we do not say that the city double
  claimed these costs for reimbursement and we recognize that the city
  did not do so. The problem is that the grant award for 10 officers


                                  32
  included a total of $60,870 in vacation costs that the city may not
  claim for reimbursement because those costs are covered in the salary
  costs that the city does claim. Consequently, the total grant award
  amount needs to be reduced by $60,870, and that is accomplished by
  COPS deobligating that amount from the total grant award. Because
  the city could not claim those costs, this action results in no loss of
  funding for the city.

  We understand that vacation is included as salary. However, we
  identified that the approved budget included vacation time as a
  separate line item in fringe benefits as well. As a result, the grantee
  received an award that was based on documentation that included
  vacation compensation in both salary and benefit calculations. The
  Jackson Police Department was awarded $60,870 in vacation as a
  fringe benefit cost that was already included in salary. Our
  recommendation remains unchanged.

  This recommendation is unresolved because COPS does not agree that
  $60,870 in excess awarded vacation costs should be deobligated. The
  recommendation can be resolved when COPS agrees that $60,870 in
  grant funding should be deobligated and closed when we receive and
  review documentation that the deobligation has been accomplished.

5. Resolved.	 COPS concurred with our recommendation that it remedy
   $6,782 in bonuses and associated fringe benefits. COPS explained
   that the grantee has agreed to reimburse the CHRP grant in the
   amount of $6,782.

  The City of Jackson also concurred with our recommendation and
  stated it is willing to reduce CHRP grant proceeds by $6,782.

  This recommendation can be closed when we receive and review
  documentation that the $6,782 in CHRP funds has been remedied.

6. Resolved.	 COPS concurred with our recommendation that it remedy
   $4,743 in METH grant funds spent on property that is unaccounted for.
   COPS stated that it is working with the grantee to close this
   recommendation.

  The City of Jackson also concurred with this recommendation. It
  stated that it believes the items were printers and computers that had
  been disposed of, but it could not locate proper disposal
  documentation.


                                  33

  This recommendation can be closed when we receive and review

  documentation that the $4,743 in METH grant funds has been 

  remedied.


7. Closed.	 COPS concurred with our recommendation that the Police
   Department improve its system for tracking property items purchased
   with grant funds including where the item is located and whether the
   item has been disposed of. COPS stated that the grantee agreed to
   prepare and submit procedures ensuring their accounting for property
   items bought with COPS grant funds.

  The City of Jackson also concurred with the recommendation and
  submitted two forms – one form to be used to track property location,
  and another form to be used for items disposed of. Completed forms
  must be submitted to the city’s accounting department.

  The recommendation is closed based on documentation we received
  and reviewed that demonstrated property items will be identified by its
  location and whether it has been disposed of.




                                 34

